No. 19-1351
In the

Supreme Court of the United States
__________________
AMERANTH, INC.,
v.

Petitioner,

DOMINO’S PIZZA, LLC, DOMINO’S PIZZA, INC.,
Respondents.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Federal Circuit

__________________

SUPPLEMENTAL BRIEF FOR PETITIONER
__________________
ROBERT F. RUYAK
RUYAKCHERIAN, LLP
1901 L Street, N.W.
Suite 700
Washington, DC 20036
(202) 838-1560
robertr@ruyakcherian.com

JERROLD J. GANZFRIED
Counsel of Record
GANZFRIED LAW
5335 Wisconsin Avenue, N.W.
Suite 440
Washington, DC 20015
(202) 486-2004
JJG@ganzfriedlaw.com

Counsel for Petitioner

August 26, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . ii
SUPPLEMENTAL BRIEF FOR PETITIONER . . . . 1
The Federal Circuit’s actions on rehearing in Am.
Axle & Mfg. v. Neapco Holdings LLC, No. 20181763, 2020 U.S. App. LEXIS 24216 (Fed. Cir.
July 31, 2020) impact this petition in three
distinct ways . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
1. The Newly Modified Majority Opinion in
American Axle Adopted and Applied Aspects
of the Party Presentment Rule on Which
Petitioner Ameranth Seeks this Court’s
Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
2. American Axle Accentuates the Federal
Circuit’s Entrenched Disagreement on the
Procedural Issues and Constitutional Due
Process Concerns That Ameranth’s Petition
Raises . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
3. The Federal Circuit’s Impasse on Procedural
and Due Process Issues Exacerbates the
Unfairness Inherent in its Unsettled law on
Patent Eligibility Under 35 U.S.C. § 101 . . . . 9
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

ii
TABLE OF AUTHORITIES
CASES
Am. Axle & Mfg. v. Neapco Holdings LLC,
939 F.3d 1355 (Fed. Cir. 2019) . . . . . . . . . . . . . 2, 3
Am. Axle & Mfg. v. Neapco Holdings LLC,
No. 2018-1763, 2019 U.S. App. LEXIS 39385
(Fed. Cir. October 3, 2019) . . . . . . . . . . . . 3, 5, 6, 7
Am. Axle & Mfg. v. Neapco Holdings LLC,
No. 2018-1763, 2020 U.S. App. LEXIS 24216
(Fed. Cir. July 31, 2020) . . . . . . . . . . . . . . . passim
The Chamberlain Grp. Inc. v. Techtronic
Indus. Co., No. 19-1299 . . . . . . . . . . . . . . . . 10, 12
United States v. Sineneng-Smith,
206 L. Ed. 2d 866 (2020) . . . . . . . . . . . . . . . . . 4, 12
STATUTES
35 U.S.C. § 101 . . . . . . . . . . . . . . . . . . . . . . . . . passim
OTHER AUTHORITIES
Melissa Brand & Hans Sauer, The Re-Written
American Axle Opinion Does Not Bring Peace of
Mind for Section 101 Stakeholders (Aug. 9, 2020)
at https://www.ipwatchdog.com/2020/08/09/rewritten-american-axle-opinion-not-bring-peacemind-section-101-stakeholders/id=123900/ . . . . . 3

iii
Ryan Davis, American Axle-Driveshaft Patent
Eligibility Has Full Fed. Circuit Bitterly Split,
Law 360 (Aug. 1, 2020) at http://www.ameranth.
com/pdf/American%20Axle%20-%20Driveshaft%
20Patent%20Eligibility%20Has%20Full%20Fe
d.%20Circuit%20Bitterly%20Split,%20Aug%20
1,%202020.pdf . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Law 360, Driveshaft Case Brings More Confusion
To Patent Eligibility (Aug. 6, 2020) at
https://www.law360.com/ip/articles/1299093/dr
iveshaft-case-brings-more-confusion-to-patenteligibility?nl_pk=7545a5b5-6a94-47d3-8aa32e19884905c5&utm_source=newsletter&utm_
medium=email&utm_campaign=ip . . . . . . . . . . 11
Thomas Long, Court Modifies Opinion Finding
Claims For Reducing Vehicle Vibrations
Ineligible (July 31, 2020) at https://lrus.wolters
kluwer.com/news/ip-law-daily/court-modifiesopinion-finding-claims-for-reducing-vehiclevibrations-ineligible/117600/ . . . . . . . . . . . . . . . . 3
Alison Lucier & Anthony Fuga, Federal Circuit
Narrows its Prior Decision; Court is Still Torn
on Section 101 Patent Eligibility (Aug. 20, 2020)
at https://www.hklaw.com/en/ininsights/public
ations/2020/08/federal-circuit-narrows-its-priordecision-court-is-still-torn . . . . . . . . . . . . . . . . . . 3

iv
Judge Paul Michel (Ret.) & John Battaglia, AAM v.
Neapco Misreads Federal Circuit Precedent to
Create a New Section 101 Enablement-like Legal
Requirement – Part II in IP Watchdog (Aug. 23,
2020) at https://www.ipwatchdog.com/2020/08/
23/aam-v-neapco-misreads-federal-circuitprecedent-create-new-section-101-enablementlike-legal-requirement-part-ii/id=124498/ . . 10, 11
Judge Paul Michel (Ret.) & John Battaglia, New
Enablement Requirements for 101 Eligibility:
AAM v. Neapco Takes Case Law Out Of Context,
and Too Far – Part I (Aug. 19, 2020) at
https://www.ipwatchdog.com/2020/08/19/newenablement-like-requirements-101-eligibilityaam-v-neapco-takes-case-law-context-farpart/id=124433/ . . . . . . . . . . . . . . . . . . . . . . . . . . 10

1
SUPPLEMENTAL BRIEF FOR PETITIONER
Petitioner Ameranth, Inc. submits this Rule 15.8
supplemental brief to inform the Court of new case law
and intervening developments subsequent to the filing
of its petition for a writ of certiorari in this case. These
recent matters bear directly on and illuminate the Due
Process question presented in Ameranth’s petition.
They strengthen petitioner’s arguments favoring
review. And they confirm the need for this Court, at the
very least, to summarily remand this case to the
Federal Circuit for further proceedings.
The Federal Circuit’s actions on rehearing in
Am. Axle & Mfg. v. Neapco Holdings LLC, No.
2018-1763, 2020 U.S. App. LEXIS 24216 (Fed. Cir.
July 31, 2020) impact this petition in three
distinct ways.
Eight weeks after Ameranth filed its petition for a
writ of certiorari, the Federal Circuit issued several
orders and opinions in Am. Axle & Mfg. v. Neapco
Holdings LLC that should inform this Court’s
deliberations.1 A brief background sketch will set the
matter in context. In a highly controversial decision in
October 2019, a divided Federal Circuit panel had
affirmed a judgment finding multiple patent claims
describing methods for manufacturing automobile

1

Ameranth’s petition for rehearing in the Federal Circuit had
identified American Axle as a case presenting several of “the same
legal issues” as in Ameranth’s appeal. Ameranth, Inc. v. Domino’s
Pizza, LLC, No. 2019-1141, 2019-1144, Dkt. 44, at *4 (Dec. 2, 2019)
(Appellant’s Combined Petition for Panel Rehearing and Rehearing
En Banc).

2
driveshafts to be ineligible under 35 U.S.C. § 101.2 In
response to a petition for rehearing and rehearing en
banc, the panel issued modified majority and
dissenting opinions on July 31, 2020. The modified
majority opinion altered the former analysis and result
in significant ways, affirming only some of the prior
findings of ineligibility while vacating and remanding
others for further proceedings in the district court. On
the same day the modified opinion issued, the full court
denied rehearing en banc by a vote of 6-6 (with two
concurring opinions and three dissenting opinions).
With the denial of rehearing en banc, the modified
panel majority opinion in American Axle is new and
binding Circuit precedent.
1. The Newly Modified Majority Opinion in
American Axle Adopted and Applied
Aspects of the Party Presentment Rule on
Which Petitioner Ameranth Seeks this
Court’s Review.
The modified majority opinion in American Axle
remanded for further proceedings on questions that
had not previously been presented by the parties.
Unlike the panel majority’s initial opinion—which held
claims 1, 22 and their dependent claims to be patent
ineligible—the majority now recognized that claim 1
2

The initial majority and dissenting opinions of the panel in
American Axle were filed on October 3, 2019. Am. Axle & Mfg., 939
F.3d 1355 (Fed. Cir. 2019). The majority opinion by Judge Dyk was
joined by Judge Taranto; Judge Moore dissented. On November 1,
2019, Judge Dyk authored the panel opinion in Ameranth.
Ameranth, Inc. v. Domino’s Pizza, LLC, 792 Fed. App’x 780 (Fed.
Cir. 2019).

3
(and its dependent claims) had to be remanded because
“the abstract idea basis was not adequately presented
and litigated in the district court.” The panel,
accordingly, vacated the judgment and remanded claim
1 and its dependent claims “for the district court to
address this alternative eligibility theory in the first
instance.” Am. Axle, No. 2018-1763, 2019 U.S. App.
LEXIS 39385, at *28 (Fed. Cir. October 3, 2019).
Compare Am. Axle, 939 F.3d 1355 (Fed. Cir. 2019) with
Am. Axle, No. 2018-1763, 2020 U.S. App. LEXIS 24216
(Fed. Cir. July 31, 2020).3
By its stated terms, the Federal Circuit’s new
binding precedent on the party presentment rule now
precludes holding petitioner Ameranth’s patent claims
ineligible on grounds not presented to either the
district court or the Federal Circuit. See Pet. 25-26.
This new development is central to the pending
petition and Ameranth’s ruling should be modified as
well.
3

Further detailed analyses of differences between the initial and
modified majority opinions can be found in Melissa Brand & Hans
Sauer, The Re-Written American Axle Opinion Does Not Bring
Peace of Mind for Section 101 Stakeholders (Aug. 9, 2020) at
https://www.ipwatchdog.com/2020/08/09/re-written-american-axleopinion-not-bring-peace-mind-section-101-stakeholders/id=123900/;
Thomas Long, Court Modifies Opinion Finding Claims For
Reducing Vehicle Vibrations Ineligible (July 31, 2020) at
https://lrus.wolterskluwer.com/news/ip-law-daily/court-modifiesopinion-finding-claims-for-reducing-vehicle-vibrationsineligible/117600/ ; Alison Lucier & Anthony Fuga, Federal Circuit
Narrows its Prior Decision; Court is Still Torn on Section 101
Patent Eligibility (Aug. 20, 2020) at https://www.hklaw.com/en/in
insights/publications/2020/08/federal-circuit-narrows-its-priordecision-court-is-still-torn.

4
Basic principles of Due Process and procedural
regularity mandate that Ameranth should not be
deprived of intellectual property rights simply because
its appeal was decided during the brief period between
the Federal Circuit’s varying panel opinions in
American Axle. If Judge Dyk had the benefit of the
views he expressed in the modified American Axle
panel opinion when issuing his November 2019 opinion
for the panel in Ameranth, the result in this case
necessarily would have been different. See Pet. 15-25.
But when this case was decided, the now superseded
holding of the initial American Axle panel was
detrimental to Ameranth in ways the Federal Circuit
now realizes are incorrect. Nor did the Federal Circuit
have the benefit of this Court’s guidance in United
States v. Sineneng-Smith, 206 L. Ed. 2d 866 (2020)
when deciding Ameranth. All the more reason for this
Court to vacate the judgment and remand this case for
further consideration in light of Sineneng-Smith or
American Axle (subject to the ultimate disposition of
American Axle in the likely event that certiorari is
sought in that case).
2. American Axle Accentuates the Federal
Circuit’s Entrenched Disagreement on the
Procedural Issues and Constitutional Due
Process Concerns That Ameranth’s
Petition Raises.
But that’s not the end of the significance to this
case of the recent developments in American Axle.
Although the modified panel opinion itself requires
that Ameranth be similarly modified, the ramifications
are more extensive. Other aspects of the Federal

5
Circuit’s disposition in American Axle highlight the
need for this Court’s review here. Judge Moore’s
dissent from the panel’s modified majority opinion gets
right to the point. As commentators have observed, in
Judge Moore’s view “the majority’s decision is a
deprivation of rights without due process.” Lucier &
Fuga, supra.
Although the majority in American Axle remanded
claim 1 to the district court, it still held claim 22
ineligible based upon a new analysis that was not
articulated in the initial panel opinion. Judge Moore
identified three critical errors with the majority’s
treatment of claims held ineligible and not remanded.
The first is that, having created a new test for
assessing whether claims are directed to a natural law
(despite no natural law being recited in the claims):
“[t]he majority refuses to ask the parties for
supplemental briefing on the application of its
new Nothing More test or to remand to the
district court to assess the applicability of the
new test in the first instance. The majority
instead holds that we appellate judges, based on
our background and experience, will resolve
questions of science de novo on appeal.” Am.
Axle, 2019 U.S. App. LEXIS 39385, at *37-38
(Moore, J., dissenting).
Judge Moore also criticized other procedural and due
process flaws in the majority’s treatment of claims held
to be ineligible:
“I am troubled by the deprivation of property
rights without due process. The majority

6
declares claims representative despite the fact
that no party argued below or to this court that
there were representative claims, and AAM
argued the import to the § 101 analysis of
dependent claim limitations throughout these
proceedings. And the majority finds against the
patentee by reaching a claim construction issue
of the majority’s own creation. The majority
concludes, though no party argued it at any
point in this litigation or appeal, that the claim
terms “positioning” and “inserting” have
different meanings. And only because of its
newly proffered, completely sua sponte
construction, claim 22 is deemed ineligible.
There is simply no justification for the majority’s
application of its new Nothing More test other
than result-oriented judicial activism. This is
fundamentally unfair.” Id. at *39-40.
To Judge Moore the absence of evidence, argument,
record support or a meaningful opportunity for the
parties to be heard rendered the majority’s approach
untenable:
“The majority is sua sponte interpreting
undisputed, unappealed claim terms with
reference to nothing. Neither party ever
suggested that the inserting and position
limitations had different meanings … The
majority’s sua sponte appellate claim
construction is improper, unfounded and
unsupported by the record. It is not our job on
appeal to create our own claim construction
issues to hold claims ineligible especially when

7
they were never briefed or argued by the
parties.”). Id. at *57.4
And under the heading “Fundamental Fairness,” Judge
Moore targeted the majority’s conclusion that claims 1
and 22 are “representative” of their dependent claims:
“First, Neapco never argued that claims 1 and
22 are representative and in fact argued the
dependent claims separately… Second, AAM
expressly argued that they are not
representative.”) Id. at *71; see id. at *73 (“Given
that the majority now sua sponte holds that
claim 22 does not contain location information,
it is unfair to refuse to review the dependent
claims which unquestionably have detained
location information.”).
These criticisms apply as well to the Federal Circuit’s
opinion in Ameranth that is the subject of the pending
petition: the sua sponte disposition of issues not
presented by the parties, including the designation of
patent claims as “representative” and the resolution by
trial and appellate judges at the summary judgment

4

See also id. at *49 (“contrary to all arguments in the case, the
record, the district court’s decision, and its own prior opinion, the
majority concludes …”); *50 (“no party introduced evidence that
the desired result of claim 22 … is accomplished by application of
Hooke’s law and nothing more. In fact, both parties’ experts
expressly and unequivocally testified to the contrary. All the
evidence in this case is to the contrary”) (emphasis in original); *53
n. 6 (“AAM has not been given an opportunity to respond to the
majority’s new Nothing More test”) (emphasis in original); *54 (the
majority “decides this question of physics as a matter of law on
appeal in the first instance even at summary judgment”).

8
stage of factual issues on which the parties lacked
notice or a meaningful opportunity to offer evidence
and argument. The problem is palpable and pervasive.
The Federal Circuit needs this Court’s guidance.
That need was heightened when the Federal Circuit
split 6-6 to deny rehearing en banc of the modified
panel opinion in American Axle. In addition to
entrenched substantive disagreements among the
judges, the opinions dissenting from the denial of en
banc rehearing expressly criticized procedural
shortcomings raised in Ameranth’s petition. Judge
O’Malley (joined by Judges Newman, Moore and Stoll)
emphasized “the procedural norms that the majority
ignores.” Am. Axle, 2020 U.S. App. LEXIS 24216, at
*50. She lamented the frequent resort by appellate
courts to sua sponte resolution of issues without
sufficient opportunity for input by the parties. And she
enumerated key procedural flaws in the panel majority
opinion:
“(1) it announces a new test for patentable
subject matter at the eleventh hour and without
adequate briefing; (2) rather than remand to the
district court to decide the issue in the first
instance, it applies the new law itself; and (3) it
sua sponte construes previously undisputed
terms in a goal-oriented effort to distinguish
claims and render them patent ineligible, or
effectively so. These obstacle-avoiding
maneuvers fly in the face of our role as an
appellate court.” Id. at *50-51.
See id. at *53-54 (“Sua sponte, and without the aid of
supplemental briefing, the majority construes claims 1

9
and 22 to have a patently distinct difference. . .. No one
argued that these terms are meaningfully, much less
patentably, different and no one asked the trial court
to compare or assess them. . . .This unrequested second
chance for Neapco Holdings LLC is unwarranted and
leaves American Axle trapped in § 101 purgatory.”).
The recent actions in American Axle confirm
fundamental points in Ameranth’s petition for writ of
certiorari. The internal disharmony among Federal
Circuit judges on basic issues of procedural fairness to
litigants warrants this Court’s review. That Federal
Circuit precedent conflicts with the majority of circuits
on the question raised in the petition amplifies the
need for review even more. See Pet. 15.
3. The Federal Circuit’s Impasse on
Procedural and Due Process Issues
Exacerbates the Unfairness Inherent in its
Unsettled law on Patent Eligibility Under
35 U.S.C. § 101.
American Axle is all the more impactful here
because, like Ameranth, the procedural deficiencies and
constitutional concerns arise in the context of the
continuing chaos that besets § 101 litigation. The
multiple concurring and dissenting opinions
accompanying the 6-6 denial of rehearing en banc in
American Axle reify the intractable impasse at the
Federal Circuit.
The Federal Circuit is irreconcilably divided even on
such fundamental threshold questions as whether the
panel majority in American Axle crafted a new
standard for § 101 eligibility. In denying rehearing en

10
banc, only four judges joined concurring opinions
saying that the panel’s majority opinion is consistent
with longstanding precedent; but five judges joined
dissenting opinions decrying the majority’s test as “a
new development with potentially far-reaching
implications in an already uncertain area of patent
law” Am Axle, 2020 U.S. App. LEXIS 24216, at *40
(Stoll, J., dissenting) resulting in “the dehabilitation of
Section 101” in ways that “moved the system of patents
from its once-reliable incentive to innovation and
commerce to a litigation gamble.” Id. at *37 (Newman,
J., dissenting).
This is not hyperbole from disappointed litigants.
These are the words of almost half the active Federal
Circuit judges deciding vital issues central to our
patent system.
The existing chaos is well-known to this Court from
many prior filings (briefly summarized at Pet. 27-32).
Since this petition was filed, amicus submissions in
The Chamberlain Grp. Inc. v. Techtronic Indus. Co.,
No. 19-1299, have stressed the urgency for this Court’s
intervention. Knowledgeable commentators echo these
concerns in their analyses of Am. Axle.5 Chamberlain

5

E.g., Judge Paul Michel (Ret.) & John Battaglia, New Enablement
Requirements for 101 Eligibility: AAM v. Neapco Takes Case Law
Out Of Context, and Too Far – Part I (Aug. 19, 2020) at
https://www.ipwatchdog.com/2020/08/19/new-enablement-likerequirements-101-eligibility-aam-v-neapco-takes-case-law-contextfar-part/id=124433/; Judge Paul Michel (Ret.) & John Battaglia,
AAM v. Neapco Misreads Federal Circuit Precedent to Create a
New Section 101 Enablement-like Legal Requirement – Part II in
IP Watchdog (Aug. 23, 2020) at https://www.ipwatchdog.com/2020/

11
and other cases affected by the Federal Circuit’s § 101
jurisprudence continue to stream onto this Court’s
docket. And the likely requests for certiorari in
American Axle will provide yet another opportunity to
address the important substantive § 101 questions. The
Court should consider the appropriate steps to assure
that all pending cases be decided under uniform
substantive standards, applied consistently and with
the procedural fairness that the Constitution
prescribes.
Whatever and whenever the resolution of
substantive § 101 standards, the need for this Court to
cure procedural flaws in § 101 litigation is immediate
and dire. The recent modified opinion and en banc
denial in American Axle demonstrate why certiorari
should be granted here. The judicial system works
properly only when parties have a fair opportunity to
provide courts with the evidence, arguments and
information essential for sound adjudication.
Several paths are available. The Court could
immediately grant certiorari, vacate and remand for
08/23/aam-v-neapco-misreads-federal-circuit-precedent-createnew-section-101-enablement-like-legal-requirement-partii/id=124498/; Law 360, Driveshaft Case Brings More Confusion To
Patent Eligibility (Aug. 6, 2020) at https://www.law360.com/ip/art
icles/1299093/driveshaft-case-brings-more-confusion-to-patenteligibility?nl_pk=7545a5b5-6a94-47d3-8aa3-2e19884905c5&utm_
source=newsletter&utm_medium=email&utm_campaign=ip; Ryan
Davis, American Axle -Driveshaft Patent Eligibility Has Full Fed.
Circuit Bitterly Split, Law 360 (Aug. 1, 2020) at http://www.amera
nth.com/pdf/American%20Axle%20-%20Driveshaft%20Patent%20
Eligibility%20Has%20Full%20Fed.%20Circuit%20Bitterly%20S
plit,%20Aug%201,%202020.pdf

12
reconsideration under the Federal Circuit’s new
approach to the party presentment rule in the modified
American Axle majority opinion (and with the benefit
of this Court’s decision in Sineneng-Smith). Or the
Court could grant plenary review to address the
continuing issues of procedural regularity and
constitutional due process on which the Federal Circuit
still conflicts with the majority of federal appellate
courts. Or the Court might consider holding this
petition pending the resolution of common procedural,
constitutional and substantive patent law issues in
other pending cert petitions (for example,
Chamberlain. No. 19-1299, and, in the likely event that
petitions will be filed, American Axle). In any event,
recent developments confirm the need for this Court to
answer the urgent pleas from the Federal Circuit
judges for further guidance.
CONCLUSION
The petition for a writ of certiorari should be
granted. Alternatively, the Court should summarily
vacate and remand to the Federal Circuit for
consideration in light of both United States v.
Sineneng-Smith, 206 L. Ed. 2d 866 (2020) and Am. Axle
& Mfg. v. Neapco Holdings LLC (and any further
proceedings in that case).

13
Respectfully submitted.
ROBERT F. RUYAK
RUYAKCHERIAN, LLP
1901 L Street, N.W.
Suite 700
Washington, DC 20036
(202) 838-1560
robertr@ruyakcherian.com

JERROLD J. GANZFRIED
Counsel of Record
GANZFRIED LAW
5335 Wisconsin Avenue, N.W.
Suite 440
Washington, DC 20015
(202) 486-2004
JJG@ganzfriedlaw.com

Counsel for Petitioner
August 26, 2020

